              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Evaluation Report
The Department’s Unclassified Cyber
Security Program-2003




DOE/IG-0620                                 September 2003
                                               -2-


The evaluation disclosed that in many instances, the Department had not acted to identify,
track, and correct previously reported issues in a timely manner. Management also had not
established program-level performance metrics to guide cyber security program execution or
evaluate performance. As a result, the Department's unclassified information systems remain
vulnerable to attacks that may affect the availability or integrity of its information assets.

In addition to sites and systems specifically covered during this evaluation, the Office of
Inspector General has done extensive work in the area of cyber security and performance
management at locations throughout the Department of Energy. Where relevant, we have
incorporated the results of our audits in this report, including our most recently issued report
on Security Over Wireless Networking Technologies (DOE/IG-0617, August 2003). In
addition, we have evaluated the design and implementation of performance measures in
conjunction with a number of programmatic audits and the annual audit of the Department's
financial statements. As a result of this body of work, the Office of Inspector General
identified information security and performance management as among the most significant
challenges facing the Department (Special Report on Management Challenges at the
Department of Energy (DOE/IG-0580, December 2002).

In March 2003, under your direction, the Department initiated an aggressive campaign to
mitigate the challenges included in that report. In response to this initiative, which has been
personally led by the Deputy Secretary, the Office of the Chief Information Officer identified
root causes and developed a plan of action to improve cyber security and mitigate the risk of
harm to the Department's systems.

We also noted that the Department had taken an aggressive approach to strengthening cyber
security during the past year and had implemented a number of measures designed to reduce
network vulnerabilities. The Office of the Chief Information Officer had also issued or
drafted a number of policies and guidelines that, when implemented, should help strengthen
the Department's cyber security program. While significant progress has been achieved,
additional action is necessary to correct the problems we identified. Accordingly, we have
made several recommendations designed to enhance the Department's overall cyber security
posture.

Due to security considerations, information on specific vulnerabilities and locations has been
omitted. Management officials at the sites evaluated have been provided with detailed
information regarding identified vulnerabilities, and in some instances have initiated
corrective actions.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Under Secretary for Energy, Science, and Environment
    Administrator, National Nuclear Security Administration
    Chief Information Officer
THE DEPARTMENT'S UNCLASSIFIED CYBER SECURITY
PROGRAM-2003

TABLE OF
CONTENTS



              Program Management

              Details of Finding ........................................................................1

              Recommendations ......................................................................5

              Comments...................................................................................6


              Appendices

              1. Objective, Scope and Methodology .......................................9

              2. Prior Reports ........................................................................11
THE DEPARTMENT'S UNCLASSIFIED CYBER SECURITY
PROGRAM-2003

Program Management   While improvements were made during the last year, we noted that
                     additional work is needed to correct problems with risk-based security
                     management, continuity of operations, configuration management, and
                     access controls. Despite policy changes and prompting by the
                     Department of Energy's (Department) Chief Information Officer (CIO),
                     sites and organizations had also not significantly improved computer
                     incident reporting.
                                             Risk-Based Management

                     We observed that certain sites had not implemented a comprehensive
                     risk-based approach to managing cyber security. Required by both the
                     Federal Information Security Management Act (FISMA) and
                     Department policy, such an approach enables program officials or
                     system owners to develop policies and procedures to address high-risk
                     issues through cost-effective mitigation strategies. Despite these
                     requirements, we noted that risk mitigation strategies were not adequate
                     at 11 of the sites we reviewed. For example, we noted:

                        •   Risk assessments that were incomplete, outdated, or had not
                            been prepared in accordance with guidance issued by the
                            Department and the Office of Management and Budget (OMB);
                        •   Cyber security program and/or system plans that were missing
                            critical elements or did not cover recent changes to the sites'
                            information technology environment; or,
                        •   Lack of security control reviews and management authorization
                            to operate systems (commonly referred to as certification and
                            accreditation) as required by OMB.

                                             Continuity of Operations

                     Even though specifically required by OMB, 13 sites had not taken
                     adequate action to ensure that they could maintain or resume critical
                     operations in the event of emergency or disaster. Specifically, we
                     identified a number of sites that had not developed, updated, or tested
                     contingency and disaster recovery plans. We observed that in some
                     situations backup storage facilities and alternative processing sites were
                     located in close proximity to one another. While convenient, such
                     arrangements increase the risk that common emergencies or disasters
                     could destroy backup copies of critical business information or
                     alternative processing facilities. Problems in this area are particularly
                     persistent and have been previously reported in information technology
                     and financial-related audits for several years.



Page 1                                                                     Details of Finding
                               Configuration Management

         Our testing also revealed configuration management weaknesses at
         many of the sites we visited. As noted by the U.S. General Accounting
         Office (GAO), proper configuration management ensures that all
         necessary updates or patches are applied, prevents unauthorized
         modifications, and ensures that the implementation of changes do not
         result in applications or systems becoming less secure. While the
         Department corrected a number of previously reported problems, our
         testing revealed control issues at nine sites. In particular:

               •   Several sites did not maintain or enforce structured
                   procedures for updates and patches to application software,
                   operating systems, and networks;
               •   A network intrusion detection system was not properly
                   configured to provide timely notifications when suspected
                   break-ins or attacks occurred;
               •   At several sites, certain persons were able to perform
                   incompatible functions such as programming and operation of
                   the same computer system; and,
               •   Certain organizations did not implement or test wireless
                   network security measures.

                                     Access Controls

         Five locations included in our evaluation had access control weaknesses
         related to networks, systems, or applications. Access controls consist of
         both physical and logical controls designed to protect computer
         resources from unauthorized modification, loss, or disclosure.
         Adequate access controls are essential for ensuring that only authorized
         individuals have access to information resources. Specifically, we
         found that:

               • Passwords did not always comply with Department policy,
                 and in one instance, were not required for network access;
               • Documented procedures were not in place to ensure
                 terminated employee and contractor account access was
                 removed; and,
               • An access control system, such as card readers, key
                 management, or sign-in/sign-out procedures, was not in place
                 to prevent or detect unauthorized access to computer facilities.




Page 2                                                        Details of Finding
                                             Cyber Security Incident Reporting

                          Despite efforts to strengthen policy, overall incident reporting had not
                          improved significantly. Specifically, we observed that sites and
                          organizations continued to have wide discretion in reporting and that in
                          Fiscal Year (FY) 2002:

                                • Over half of the Department's organizations made no reports
                                  of malicious activity;
                                • Federal law enforcement officials were notified of only 20 of
                                  49 successful systems intrusions;
                                • Site personnel did not always preserve evidence that law
                                  enforcement officials needed to investigate or determine the
                                  source of attacks; and,
                                • Attacks originating from foreign sources were not always
                                  reported to cognizant counterintelligence officials.

                          Without timely and complete reporting, the Department may be unable
                          to prevent or detect emerging or recurring attacks and lacks critical
                          information necessary for assessing risk.


Focus on Corrective       Weaknesses persisted because management had not taken sufficient
Actions and Performance   action to ensure that all previously identified cyber security weaknesses
Metrics                   were properly identified, tracked, and corrected in a timely manner.
                          The Department also had not established program-level performance
                          metrics to guide cyber security program execution or evaluate
                          performance.

                                               Plan of Action and Milestones

                          Despite OMB requirements, the Department had not always maintained
                          and updated its Plan of Action and Milestones database (POA&M).
                          Specifically, our examination revealed that 22 of 30 uncorrected cyber
                          security weaknesses reported during our 2002 evaluation were not
                          included in the Department's quarterly reports to OMB. After
                          reviewing the results of our analysis in this area, officials from the
                          Office of the Chief Information Officer (OCIO) told us that the
                          weaknesses were originally entered in the POA&M. However, various
                          sites subsequently did not complete corrective actions and report on the
                          weaknesses identified in our 2002 report. Even though these findings




Page 3                                                                         Details of Finding
                             were issued and Department elements provided responses in Fiscal
                             Year 2002, OCIO officials told us that the findings were never reported
                             to OMB because program offices did not recognize them. Based on
                             follow-up testing, we also found that two cyber security weaknesses
                             were reported as closed but had not actually been corrected. Sites were
                             permitted to close the findings without providing supporting evidence
                             or verification that the weakness had actually been corrected.

                             Officials from the OCIO told us that the Department had initiated action
                             designed to satisfy OMB expectations that the POA&M be used to
                             proactively manage the Department's cyber security program. In
                             particular, the Associate CIO for Cyber Security indicated that his
                             office had developed a Cyber Security Scorecard to help program
                             elements focus or prioritize needed corrective action. The Department's
                             POA&M administrator also told us that every effort is being made to
                             utilize the database to its full potential and that previously unreported
                             findings would be included in the 4th quarter report to OMB.

                                               Program Level Performance Metrics

                             The Department had also not established program-level performance
                             metrics to guide cyber security program execution or evaluate
                             performance. While the CIO has advocated adoption of program or
                             site-specific performance metrics, organizations have been slow to
                             adopt such measures. Such action could enhance ability to highlight the
                             strengths and weaknesses of security controls and permit management
                             to adjust resources to target areas of need. More importantly,
                             measuring program performance is a key feature of the President's
                             Management Agenda and is a requirement of FISMA. Departmental
                             officials told us that program elements will soon be required to
                             implement program level measures and will be able to take advantage
                             of the National Institute of Standards and Technology's (NIST) recently
                             published Security Metrics Guide for Information Technology Systems.


Continuing Vulnerabilities   While the Department's overall cyber security posture has improved, a
                             number of unclassified information systems remain vulnerable to
                             attack. The Department's information resources will continue to remain
                             at risk until it corrects previously identified weaknesses and implements
                             measures to guide and measure performance in this vital area. As
                             recognized by OMB, effective remediation of information technology
                             security weaknesses and timely incident reporting are essential to
                             achieving a mature and sound information technology security program
                             and securing our information and systems. As the CIO noted in recent

Page 4                                                                            Details of Finding
                       guidance, the requirements to conduct adequate security planning and
                       evaluate control effectiveness are not new. Failure to place proper
                       emphasis on correcting identified weaknesses unnecessarily exposes
                       critical information resources to threat of compromise.


Program Improvements   To its credit, we noted that the Department had taken an aggressive
                       approach to strengthen cyber security and had implemented counter
                       measures to reduce network vulnerabilities since our evaluation of The
                       Department's Unclassified Cyber Security Program 2002 (DOE/IG-
                       0567, September 2002). In addition, the CIO has issued or drafted
                       several policy statements that, if implemented, should improve cyber
                       security throughout the Department, including:

                             • DOE Order 205.1 which revised the Department's cyber
                               security management program;
                             • A series of draft cyber security policies and guidance on
                               certification and accreditation of systems, information
                               technology risk management, wireless technology, remote
                               access to systems, computer virus and incident reporting, and
                               sanitization of computer media; and,
                             • A memorandum emphasizing the need for a risk-based
                               approach to managing cyber security and mandating the use of
                               the NIST self-assessment methodology for evaluating
                               computer security.

                       While significant progress has been achieved, additional action is
                       necessary to correct the problems we identified and enhance the
                       Department's overall cyber security posture.


RECOMMENDATIONS        We recommend that the Under Secretary for Energy, Science and
                       Environment and the Administrator, National Nuclear Security
                       Administration, in conjunction with the Chief Information Officer:

                          1. Ensure all program elements make full use of the POA&M to
                             identify, track and ultimately correct all cyber-security
                             weaknesses, regardless of the source;

                          2. Verify that all cyber security weaknesses are corrected prior to
                             closing them; and




Page 5                                                                    Recommendations
                3. Implement a program-level cyber security metrics program to
                   guide day-to-day operations.


MANAGEMENT   Auditor's Note: Because of short timeframes for reporting, the Office
COMMENTS     of Inspector General and Departmental Management agreed to an
             expedited comment period for this report. The following comments
             were based on a series of meetings between the Office of Inspector
             General and the Associate Chief Information Officer for Cyber
             Security.

                                       Risk Management

             The Department of Energy (DOE) and DOE element management have
             focused their efforts on the most critical systems in their inventory.
             System security plans and risk analysis of our systems is proceeding at
             a rapid pace to meet the requirements of the Federal Information
             Security Management Act (FISMA) and Office of Management and
             Budget (OMB) guidelines. Training personnel and completing the
             documentation is a difficult and resource consuming task that DOE is
             committed to completing expeditiously. Peer reviews of the quality and
             completeness of each plan are also being conducted to verify that DOE
             systems have implemented the appropriate cost effective controls to
             minimize the risk for each system.

                                   Configuration Management

             Over the last year, DOE has deployed thousands of workstations
             configured to the new DOE standard. DOE understands the importance
             of configuration and change management and is in the process of
             implementing the appropriate programs while bringing current assets
             under configuration control. Patch management and application
             configuration control are also in process.

                                        Access Controls

             DOE has clearly defined access control procedures and password
             policies. Those responsible for granting access receive periodic and
             ongoing training for the proper execution of these functions. When
             cases that are out of the norm are brought to the attention of
             management they are handled on a case-by-case basis. When actions
             have been taken that violate DOE policy the actions are corrected and




Page 6                                                                  Comments
         the individual(s) involved receive corrective training to ensure this does
         not occur again. DOE also has a clearly defined password policy.
         Network system administrators are trained in the proper administration
         of this policy. All managers and those performing verification
         functions verify access controls are in place on an on-going basis and
         when problems are uncovered they must be, and are, corrected
         immediately. We have multiple certification and verification functions
         to provide management assurance that our systems continue to operate
         in a secure manner.

                            Cyber Security Incident Reporting

         The requirements for reporting will be clearly defined in the new
         Incident Prevention, Warning, and Response (IPWAR) Manual that will
         be published as guidance during the first quarter FY 2004.
         Management focus over the last six months has been changed to include
         a prevention function as well as a reactive function to past or ongoing
         activity. The robustness and completeness of this function is an
         ongoing focus of the Office of the Chief Information Officer (OCIO).
         As highlighted by recent guidance from FedCIRC the reporting
         guidance and requirements are continuously changing. DOE is
         committed to ensuring that appropriate information is shared to
         minimize the impact of intruder activities on all government systems.

         Recommendation 1: Concur with Comment. The OCIO requests an
         official POA&M update from program elements on a quarterly basis.
         They may at any time during the quarter provide additional updated
         information. The Deputy Associate CIO for Cyber Security issues
         detailed instructions to the program elements for the update and
         provides a forum at the weekly Cyber Security Coordination Group
         meetings to discuss any issues or questions. Responses from all
         program elements are obtained and added to the POA&M prior to the
         quarterly OMB submission. To date, no program element has failed to
         respond to this data call. Although responsibility for entering and
         updating information lies with each program element, the OCIO
         facilitates this process by coordinating with them when information on
         new findings or weaknesses appear in published audit reports and
         evaluations.

         Program elements are using the POA&M more and more as an overall
         tracking tool for all their findings. Recent direction from the OCIO




Page 7                                                 Management Comments
                   requires program elements to include in their quarterly updates whether
                   self-assessments were conducted and the results. A number of offices
                   have already reported these data and more are expected in the future as
                   plans for self-assessments are finalized. The OCIO will continue to
                   require reporting of these and other internal assessments and remind
                   program offices to fully report all findings during the next data call in
                   December 2003.

                   Finally, the OCIO uses POA&M data to prepare the Cyber Security
                   Scorecard. Quarterly, the OCIO prepares and provides to DOE senior
                   management officials a Cyber Security Scorecard that provides
                   information on the number of open findings and their due dates by
                   Department and location within the Department. An analysis is
                   prepared on the primary causes of open findings by Departmental
                   element to help them focus on areas needing particular attention.

                   Recommendation 2: Concur. The OCIO through its quarterly
                   updates, will request data on the extent to which LPSOs have verified
                   their submissions.

                   Recommendation 3: Concur. On June 10, 2003, the CIO issued a
                   memorandum for Heads of Departmental Elements specifying
                   requirements for the quarterly reporting of Tier I performance metrics
                   for cyber security. These metrics included OMB's overall measurement
                   categories as well as 13 additional metrics. These departmentwide
                   metrics are required every quarter. In addition, the memo specified that
                   Departmental Elements must develop and use lower lever or "Tier II"
                   metrics to measure the performance of particular areas of importance
                   within their programs. However, until DOE O 205.1 goes into effect on
                   September 18, 2003, Tier II metrics are not required. A sample of the
                   Tier II metrics was provided and the Office of Cyber Security offered
                   assistance to program elements. The OCIO will continue to require
                   these metrics and will work with program elements, as needed, to help
                   them structure and define useful program-level measurements. The
                   initial data call for Tier I metrics occurred in July 2003. The next one
                   will occur in December 2003.


AUDITOR COMMENTS   Management's proposed actions are responsive to our
                   recommendations.




Page 8                                                                          Comments
Appendix 1

OBJECTIVE     As required by FISMA and the OMB implementing guidance, the
              OIG performed its third annual evaluation to determine whether the
              Department's unclassified cyber security program protected data and
              information systems.


SCOPE         Between March and August 2003, we performed an assessment of
              the Department's unclassified cyber security program. Specifically,
              we assessed controls over network operations to determine the
              effectiveness related to safeguarding information resources from
              unauthorized internal and external sources. The evaluation also
              included a limited review of general and application controls in
              areas such as entity-wide security planning and management, access
              controls, application software development and change controls, and
              service continuity. Our work did not include a determination of
              whether vulnerabilities found were actually exploited and used to
              circumvent existing controls. The Office of Independent Oversight
              and Performance Assurance performed a separate review of
              classified information systems.


METHODOLOGY   To accomplish our evaluation objective, we reviewed applicable
              laws and directives pertaining to cyber security and information
              technology resources, such as FISMA, OMB Circular A-130
              (Appendix III), and DOE Order 205.1, and reviewed the
              Department's overall cyber security program management, policies,
              procedures, and practices. Selected Headquarters offices and field
              sites were evaluated in conjunction with the annual audit of the
              Department's Consolidated Financial Statements, utilizing work
              performed by KPMG LLP, the OIG's contract auditor. The
              evaluation included analysis and testing of general and application
              controls for systems as well as vulnerability and penetration testing
              of networks. To minimize duplication of effort, we directly
              incorporated the results of other audits, evaluations, and inspections
              performed by the OIG, the General Accounting Office, and the
              Department's Office of Independent Oversight and Performance
              Assurance in our report.

              We evaluated the Department's implementation of the Government
              Performance and Results Act related to the establishment of
              performance measures for unclassified cyber security. We did not




Page 9                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                     rely solely on computer-processed data to satisfy our objectives.
                     However, computer-assisted audit tools were used to perform probes of
                     various networks and devices. We validated the results of the scans by
                     confirming the weaknesses disclosed with responsible on-site personnel
                     and performed other procedures to satisfy ourselves as to the reliability
                     and competence of the data produced by the tests.

                     The evaluation was conducted in accordance with generally accepted
                     Government auditing standards for performance audits and included
                     tests of internal controls and compliance with laws and regulations to
                     the extent necessary to satisfy our objective. Accordingly, we assessed
                     internal controls regarding the development and implementation of
                     automated systems. Because our review was limited, it would not
                     necessarily have disclosed all internal control deficiencies that may
                     have existed at the time of our evaluation.

                     An exit conference was held with appropriate officials on
                     September 15, 2003.




Page 10                                               Objective, Scope, and Methodology
Appendix 2

                                             PRIOR REPORTS


•   Special Report on Management Challenges at the Department of Energy (DOE/IG-0580, December
    2002). Information technology management remains one of the most serious challenges facing the
    Department. Although progress had been made in establishing management processes to control
    information technology planning and investment, and cyber security, the Department must still
    effectively implement these processes to, among other things, avoid system duplication and minimize
    vulnerabilities.

•   The Department's Unclassified Cyber Security Program 2002 (DOE/IG-0567, September 2002). The
    Department had not sufficiently strengthened its cyber security policy and guidance, implemented a
    cyber security performance measurement system, or established an effective self-assessment program.
    As a result, critical systems were at risk of unauthorized or malicious use. Furthermore, the potential
    existed for compromise of sensitive operational and personnel-related data.

•   Cyber-Related Critical Infrastructure Identification and Protection Measures (DOE/IG-0545, March
    2002). While the Department had initiated certain actions designed to enhance cyber security, it had not
    made sufficient progress in identifying and developing protective measures for critical infrastructures or
    assets. For example, the audit disclosed that the identification of national priority assets had not been
    finalized and the specific identification of critical cyber-related assets had not begun. Corrective actions
    to address issues disclosed by our previous audit of the Department's infrastructure protection program
    were progressing slowly and remained incomplete. For instance, specific, quantifiable infrastructure
    protection-related performance measures had not been developed and the Department's critical
    infrastructure protection plan had not been updated.

•   Virus Protection Strategies and Cyber Security Incident Reporting (DOE/IG-0500, April 2001). The
    Department's virus protection strategies and cyber security incident reporting methods did not
    adequately protect systems from damage by viruses and did not provide sufficient information needed to
    manage its network intrusion threat. These problems existed because the Department had not developed
    and implemented an effective enterprise-wide strategy for virus protection and cyber security incident
    reporting.

•   Implementation of Presidential Decision Directive 63, Critical Infrastructure Protection (DOE/IG-
    0483, September 2000). While external energy sector infrastructure protection activities were
    progressing and a number of internal and collateral actions had been completed, the Department had not
    implemented its critical infrastructure protection plan to mitigate significant vulnerabilities, or assure
    the continuity and viability of its critical infrastructures.

•   Unclassified Computer Network Security at Selected Field Sites (DOE/IG-0459, February 2000).
    Departmental sites audited had significant internal or external weaknesses that increased the risk that
    their unclassified computer networks could be damaged by malicious attack. Each site evaluated had



Page 11                                                                                         Prior Reports
Appendix 2 (continued)

    network vulnerabilities involving poor password management, unnecessary access to certain powerful
    computer services, weak configuration management, outdated software with known security problems,
    and/or problems with firewall configuration.

•   Information Security: Serious and Widespread Weaknesses Persist at Federal Agencies (GAO/AIMD-
    00-295, September 2000). GAO noted that a major contributing factor to the existence of the
    Department's security vulnerabilities was ineffective and inconsistent information technology security
    management throughout the Department. GAO found that, among other things, the Department had not
    prepared federally required security plans, effectively identified and assessed information security risks,
    or fully and consistently reported security incidents.

•   Information Security: Software Change Controls at the Department of Energy (GAO/ AIMD-00-189R,
    June 2000). GAO reviewed software change controls at the Department focusing on, among other
    things, whether key controls as described in agency policies and procedures regarding software change
    authorization, testing, and approval complied with Federal guidance. They reported that
    Departmentwide guidance and formal procedures were inadequate and several components reviewed
    had no formally documented process for routine software change control.

•   Information Security: Vulnerabilities in DOE's Systems for Unclassified Civilian Research (GAO/
    AIMD-00-140, June 2000). Unclassified scientific research information systems were not consistently
    protected at all Department laboratories. Although some laboratories were taking significant steps to
    strengthen access controls, many systems remained vulnerable. A major contributing factor to the
    continuing security shortfalls at these laboratories was that the Department lacked an effective program
    for consistently managing information technology security throughout the agency.

•   Independent Oversight Safeguards & Security and Cyber Security Inspection of the Los Alamos Site
    Office and Los Alamos National Laboratory (December 2002).

•   Independent Oversight Inspection of Cyber Security at the Chicago Operations Office and Argonne
    National Laboratory (October 2002).

•   Independent Oversight Cyber Security Inspection of Albuquerque Operations Office (October 2002).




Page 12                                                                                         Prior Reports
                                                                               IG Report No.:DOE/IG-0620

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
